               Processing Changes Would Improve Service
                and Reduce Unnecessary Interest Paid on
                Refunds to Taxpayers That File Amended
                     Individual Income Tax Returns

                                     July 2005

                       Reference Number: 2005-40-111




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                            DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                      July 22, 2005


      MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


      FROM:                        Pamela J. Gardiner
                                   Deputy Inspector General for Audit

      SUBJECT:                     Final Audit Report - Processing Changes Would Improve Service
                                   and Reduce Unnecessary Interest Paid on Refunds to
                                   Taxpayers That File Amended Individual Income Tax Returns
                                   (Audit # 200440049)


      This report presents the results of our review of Internal Revenue Service (IRS)
      processing of amended individual income tax returns. The overall objective of this
      review was to determine whether the IRS timely and properly processes amended
      individual tax returns (Amended U.S. Individual Income Tax Return (Form 1040X)). The
      review was included in the Treasury Inspector General for Tax Administration’s (TIGTA)
      Fiscal Year 2005 Annual Audit Plan for the IRS Wage and Investment (W&I) Division
      and supports the TIGTA’s audit program to assess areas related to the IRS’ strategic
      goal to improve taxpayer service.
      Taxpayers file Forms 1040X primarily to correct individual income tax returns previously
      filed. Tax examiners in the Code and Edit functions at the IRS Submission Processing
      sites1 screen Forms 1040X to identify those that can be processed at the sites and
      those meeting criteria for referral to other functions where more complex issues are
      handled. Approximately two-thirds of all Forms 1040X received by the Submission
      Processing sites during Calendar Year 2004 were referred to the Accounts
      Management Adjustment function for processing.
      Our review focused on Forms 1040X referred to and processed by the Accounts
      Management Adjustment function between January and June 2004. During this period,
      the Austin Campus2 was implementing the Correspondence Imaging System. This

      1
        Submission Processing sites process paper and electronically submitted tax returns and supplemental documents,
      account for tax revenues, and issue refunds and tax notices.
      2
        The campuses are the data processing arm of the IRS. They process paper and electronic submissions, correct
      errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                      2

system was used to scan Forms 1040X into digital images, code the referral records to
the taxpayers’ accounts, and assign the Forms 1040X to Accounts Management
Adjustment function employees for processing. The Correspondence Imaging System
has subsequently been implemented at three other campuses.
In summary, Forms 1040X referred to the Accounts Management Adjustment function
were not always processed timely, resulting in the payment of additional interest to
some taxpayers that filed Forms 1040X for refund. Submission Processing function
procedures require that the referral record, which indicates the Form 1040X was
referred to another function, be input to the taxpayer’s account within 11 workdays from
the received date of the Form 1040X. This processing requirement was changed to
12 calendar days in November 2004. Accounts Management Adjustment function
procedures generally require that cases be worked within 45 calendar days. IRS
procedures require that all refundable tax returns be processed and refunds issued
within 45 calendar days to avoid interest payments.
We reviewed a statistical sample of 357 Forms 1040X randomly selected from the
population of 1,052,964 Forms 1040X received by the IRS and processed by the
Accounts Management Adjustment function between January and June 2004. We
found that referral records for 146 Forms 1040X (41 percent) were not timely input to
the taxpayers’ accounts and 49 Forms 1040X (14 percent) were not timely closed by the
Accounts Management Adjustment function. We also determined that the refunds for
120 Forms 1040X (34 percent) were not issued within 45 calendar days and resulted in
payment of additional interest.
Based on the sample results, we estimated that 430,623 Forms 1040X in the population
were not timely referred to the Accounts Management Adjustment function for
processing and that 144,524 were not timely closed by the Accounts Management
Adjustment function. We also estimated that refunds were not timely issued for
353,937 Forms 1040X in the population and resulted in unnecessary interest payments
of over $3 million.
Untimely processing of Forms 1040X occurred for several reasons. The unit that scans
Forms 1040X into the Correspondence Imaging System does not prioritize
Forms 1040X for scanning to ensure the referral records are input to the taxpayers’
accounts within 11 workdays. This unit is aligned under the Accounts Management
Adjustment function, whereas the 11-workday processing requirement is a Submission
Processing function procedure. In addition, Forms 1040X for refund are not prioritized
for processing to ensure the refunds are issued within 45 calendar days to avoid the
payment of unnecessary interest. Another reason for the processing delays is
“reroutes.” These are documents that are routed to the Accounts Management
Adjustment function from other functions, field offices, campuses, and Lockbox sites.3
Reroutes will never be totally eliminated because IRS procedures require a certain

3
  A lockbox site is a commercial bank designated by the Financial Management Service (FMS) to process Federal
tax payments. Source documents are processed and forwarded to the Submission Processing sites. The FMS is the
bureau within the Department of the Treasury responsible for outside contracting and cash management.
                                                           3

amount of routing when special skills are needed to resolve a case or when another
function has an open issue on the case.
We believe several processing changes could improve taxpayer service and reduce
unnecessary interest payments. We recommended the Director, Customer Account
Services, W&I Division, ensure the Submission Processing function’s change to a
12-calendar day processing time period for Forms 1040X was effectively implemented;
ensure the campuses conduct periodic reviews of Forms 1040X receipts that are aged
30 or more days to identify problem areas or trends causing processing delays; revise
procedures so Forms 1040X for refunds are given priority for processing; and ensure
the various functions’ procedures for processing Forms 1040X are consistent,
compatible, and comprehensive.
Management’s Response: IRS management agreed with three of our four
recommendations. For Recommendations 1 and 2, the W&I Division will develop
procedures to require campuses to review the Image Control Team Units to identify
processing delays, their causes, and appropriate corrective measures. In addition, the
campuses will be required to sample receipts that are aged 30 or more days and review
them to determine possible trends and develop strategies to improve timeliness. The
campuses will be required to conduct these reviews at least twice per fiscal year.
For Recommendation 4, the W&I Division reviewed and clarified its Internal Revenue
Manual4 (IRM) procedures for processing Form 1040X. The Submission Processing
function IRM5 was revised to only include Form 1040 series refund returns received and
processed by Submission Processing as being subject to the 45-calendar day interest-
free period.
The Commissioner, W&I Division, did not agree with Recommendation 3. The Accounts
Management Adjustment function will continue to use the first-in, first-out (FIFO)
inventory control method to ensure all taxpayers submitting requests for service are
treated equitably. Management’s complete response to the draft report is included as
Appendix V.
Office of Audit Comment: Although we are pleased the Commissioner, W&I Division,
has agreed to implement three of our four recommendations, we are concerned that the
disagreement to Recommendation 3 has prevented the corrective action taken on
Recommendation 4 from being effectively implemented as intended.
In Recommendation 3, we suggested that all Forms 1040X for potential refund be given
priority processing in lieu of the FIFO method used by the Accounts Management
Adjustment function. In Recommendation 4, we suggested the W&I Division review and
revise procedures to ensure consistent and compatible processing of Forms 1040X by
W&I Division functions. However, the corrective action taken does not do that. Instead,
it allows processing procedures for Forms 1040X to continue being inconsistently
applied among W&I Division functions.

4
    The IRM contains the policies, procedures, and guidelines for IRS operations.
5
    See the explanation of IRM 3.30.123.2.2 in the first bullet on page 10.
                                                          4

We believe the disagreement to Recommendation 3 reflects an inconsistent application
of the IRS’ policy on priority processing for refundable tax returns. For example, within
the W&I Division, the Submission Processing function processes Forms 1040X in
accordance with IRM guidelines requiring refunds to be issued within 45 calendar days
to ensure timely refunds and to avoid unnecessary interest payments. These are the
same guidelines used each year to process refundable tax returns during the filing
season6 in an effort to reduce costs and ensure the timely issuance of taxpayer refunds.
In contrast, by allowing the Accounts Management Adjustment function to process
Forms 1040X using a FIFO method, taxpayer equity is compromised rather than
ensured because of the inconsistent guidelines between these functions in addition to
incurring costs for the payment of unnecessary interest due to the untimely issuance of
refunds.
We have concluded that processing Forms 1040X refunds using the IRS’ 45-day
interest-free guideline should be consistently applied since the Form 1040X is
characteristic of a refundable tax return rather than a taxpayer request for service.
Using the 45-day interest-free guideline benefits both the taxpayer by ensuring refunds
are expedited as well as the IRS by preventing the payment of unnecessary interest.
While we still believe Recommendation 3 is worthwhile, we do not intend to elevate our
disagreement concerning it to the Department of the Treasury for resolution.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 927-0597.




6
    The period from January though mid-April when most individual income tax returns are filed.
      Processing Changes Would Improve Service and Reduce Unnecessary Interest
     Paid on Refunds to Taxpayers That File Amended Individual Income Tax Returns




                                                  Table of Contents


Background ............................................................................................... Page 1
Amended Individual Income Tax Returns Referred to the
Accounts Management Adjustment Function Were Not
Always Processed Timely ......................................................................... Page 4
         Recommendation 1: .......................................................................Page 6
         Recommendation 2: .......................................................................Page 8

Untimely Processing of Amended Individual Income Tax
Returns Resulted In Unnecessary Interest Paid........................................ Page 8
         Recommendation 3: .......................................................................Page 11
         Recommendation 4: .......................................................................Page 12

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 14
Appendix II – Major Contributors to This Report ....................................... Page 17
Appendix III – Report Distribution List ....................................................... Page 18
Appendix IV – Outcome Measures............................................................ Page 19
Appendix V – Management’s Response to the Draft Report ..................... Page 21
     Processing Changes Would Improve Service and Reduce Unnecessary Interest
    Paid on Refunds to Taxpayers That File Amended Individual Income Tax Returns

                                An Amended U.S. Individual Income Tax Return
Background
                                (Form 1040X) is filed by an individual taxpayer primarily to
                                correct an income tax return previously filed. Forms 1040X
                                are received throughout the year at seven Wage and
                                Investment (W&I) Division Submission Processing sites
                                located throughout the country. 1 Currently, Forms 1040X
                                must be filed on paper because electronic filing is not yet
                                available for this type of tax return.
                                Forms 1040X can contain a variety of issues that range from
                                simple to complex. For example, one Form 1040X might
                                contain a correction to wages due to an additional or
                                corrected Wage and Tax Statement (Form W-2), while
                                another could contain a net operating loss carryback to a
                                prior tax year. Forms 1040X that are missing information
                                required to process the returns may be returned to the
                                taxpayers with a notice asking for the missing information.
                                Tax examiners in the Submission Processing sites’ Code
                                and Edit functions screen Forms 1040X to identify those
                                meeting criteria for referral to other functions and those that
                                can be worked within the Submission Processing site.
                                Referrals to other functions are necessary because the
                                different functions perform different activities and work
                                specific and/or more complex issues.2 When a Form 1040X
                                is referred to a function outside of the Submission
                                Processing function, the taxpayer’s account is coded to




                                1
                                  Andover, Massachusetts; Atlanta, Georgia; Austin, Texas;
                                Fresno, California; Kansas City, Missouri; Memphis, Tennessee; and
                                Philadelphia, Pennsylvania, Submission Processing Sites. These sites
                                process paper and electronically submitted tax returns and supplemental
                                documents, account for tax revenues, and issue refunds and tax notices.
                                2
                                  For example, the Internal Revenue Service Accounts Management
                                Adjustment function changes taxpayer accounts based on information it
                                receives from taxpayers and other IRS departments. The Collection
                                function secures past due payments and returns. The Statute Control
                                function addresses issues regarding the Statute of Limitations. The
                                Examination function reviews tax returns to ensure they comply with the
                                tax laws.
                                                                                               Page 1
 Processing Changes Would Improve Service and Reduce Unnecessary Interest
Paid on Refunds to Taxpayers That File Amended Individual Income Tax Returns

                            establish a referral record that the Form was referred to the
                            other function.3
                            In November 2003, the Internal Revenue Service (IRS)
                            Austin Campus4 began piloting and implementing the new
                            Correspondence Imaging System (CIS). The CIS scans
                            Accounts Management Adjustment function receipts such as
                            Forms 1040X, internal transcripts, notices, and
                            correspondence into digital images. Forms 1040X that are
                            referred to the Accounts Management Adjustment function
                            are placed on carts and delivered daily to the Image Control
                            Team (ICT) Unit where they are scanned into the CIS.
                            During scanning, the referral record is systemically coded to
                            the taxpayer’s account. After scanning, the CIS assigns the
                            imaged Forms 1040X to Accounts Management Adjustment
                            function employees for processing.
                            With the CIS, the Accounts Management Adjustment
                            function will move from a paper-intensive system to a
                            modern, digital, image-based system. When the CIS is fully
                            implemented at the other campuses,5 employees in the
                            Accounts Management Adjustment function will have
                            universal access to electronically imaged cases. Some of
                            the benefits of the CIS include:
                            •   There are no source documents to be associated or filed
                                because the case documents are stored as electronic
                                images.
                            •   The need to physically move paper cases from one
                                location to another is eliminated because the imaged
                                cases can be transferred electronically.


                            3
                              The referral record consists of Transaction Code (TC) 971 and a
                            three-digit Action Code (AC). The AC identifies the function to which
                            the amended return was routed or the action taken. For example, input
                            of TC 971 with AC 010 indicates a Form 1040X was referred to the
                            Accounts Management Adjustment function for processing.
                            4
                              The campuses are the data processing arm of the IRS. They process
                            paper and electronic submissions, correct errors, and forward
                            data to the Computing Centers for analysis and posting to taxpayer
                            accounts.
                            5
                              The CIS was implemented at the Atlanta Campus in the summer of
                            2004, the Kansas City Campus in the fall of 2004, and the
                            Andover Campus in early 2005. The CIS is scheduled for
                            implementation at the Fresno Campus in August 2005.
                                                                                          Page 2
 Processing Changes Would Improve Service and Reduce Unnecessary Interest
Paid on Refunds to Taxpayers That File Amended Individual Income Tax Returns

                            •   Casework will be distributed by document type and
                                received date and can be prioritized based on a variety
                                of adjustable criteria.
                            •   Inventory, closure, and age reports will be generated
                                automatically and available online.
                            Figure 1 shows the general flow of Forms 1040X routed to
                            the Accounts Management Adjustment function for
                            processing.
                                  Figure 1: General Flow of Forms 1040X Routed to the
                                Accounts Management Adjustment Function for Processing




                            Source: Form 1040X Instructions and IRS Internal Revenue Manual
                            (IRM)6 procedures.

                            During Calendar Year 2004, the Submission Processing
                            sites received approximately 3.1 million Forms 1040X and
                            worked approximately 1.1 million of those returns. The

                            6
                             The IRM contains the policies, procedures, and guidelines for IRS
                            operations.
                                                                                           Page 3
        Processing Changes Would Improve Service and Reduce Unnecessary Interest
       Paid on Refunds to Taxpayers That File Amended Individual Income Tax Returns

                                   remaining 2 million Forms 1040X were referred to the
                                   Accounts Management Adjustment function for processing.
                                   We performed this audit at the Austin Campus during the
                                   period August 2004 through March 2005. The audit work
                                   included Forms 1040X received at the seven W&I Division
                                   Submission Processing sites and routed to the sites’
                                   Accounts Management Adjustment functions for
                                   processing. The audit was conducted in accordance with
                                   Government Auditing Standards. Detailed information on
                                   our audit objective, scope, and methodology is presented in
                                   Appendix I. Major contributors to the report are listed in
                                   Appendix II.
                                   When a Submission Processing site refers a Form 1040X to
Amended Individual Income Tax
                                   the Accounts Management Adjustment function, the IRM
Returns Referred to the Accounts
                                   requires that the referral record be input within
Management Adjustment
                                   11 workdays7 from the received date of the Form 1040X. In
Function Were Not Always
                                   addition, the Accounts Management Adjustment function
Processed Timely
                                   time period for working a Form 1040X is generally
                                   45 calendar days from the later of the Form 1040X received
                                   date or processible date8 to the date the Form 1040X is
                                   closed by the function. After 45 calendar days, the
                                   Form 1040X is considered over-age.
                                   We analyzed the Individual Master File9 and identified
                                   1,052,964 individual taxpayer accounts showing a
                                   Form 1040X routed to the Accounts Management
                                   Adjustment function and closed between January and
                                   June 2004. We reviewed a statistical sample of
                                   357 Forms 1040X taken from the population and
                                   determined if the referral records were coded to the
                                   taxpayers’ accounts within 11 workdays and the
                                   Accounts Management Adjustment function closed the
                                   Forms 1040X within 45 calendar days.




                                   7
                                     Workdays are defined as nonholiday Mondays through Fridays.
                                   8
                                     A return is processible by the IRS if it is filed on a permitted form;
                                   contains the taxpayer’s name, address, identification number, and
                                   required signature; and contains sufficient information for mathematical
                                   verification of the amount shown on the claim.
                                   9
                                     The IRS database that maintains transactions or records of individual
                                   tax accounts.
                                                                                                   Page 4
 Processing Changes Would Improve Service and Reduce Unnecessary Interest
Paid on Refunds to Taxpayers That File Amended Individual Income Tax Returns

                            Our analysis showed that the Austin Campus had the
                            highest number of untimely actions, due primarily to
                            piloting and implementing the CIS. This campus
                            experienced hardware and software problems that impacted
                            workload processing and had to train and adjust staffing to
                            accommodate the new system.
                            Forms 1040X were not timely routed to the Accounts
                            Management Adjustment function
                            We found that the referral records for Forms 1040X routed
                            to the Accounts Management Adjustment function were not
                            input within 11 workdays for 146 Forms 1040X
                            (41 percent) in our sample. The average number of
                            workdays to input the referral records for the 146 Forms
                            1040X was 17 days, and the range was from 12 to 38 days.
                            Using the 41 percent rate, we estimated that 430,623 of the
                            Forms 1040X in the population did not meet the
                            11-workday requirement.10
                            The ICT Unit does not prioritize Forms 1040X for scanning
                            into the CIS to ensure referral records are input to the
                            taxpayers’ accounts within 11 workdays. This Unit is
                            aligned under the Accounts Management Adjustment
                            function, whereas the 11-workday processing requirement is
                            a Submission Processing function procedure.
                            The Austin Campus conducted two reviews of the
                            ICT Unit’s receipts during the summer and fall of 2004.
                            The purpose of both reviews was twofold: to determine the
                            time period between the date the IRS received the
                            Forms 1040X and the date they were delivered to the
                            ICT Unit and to identify the causes for delays. A total of
                            778 Forms 1040X were examined during the 2 reviews.
                            The first review identified an average of 15 calendar days
                            between the 2 dates. The second review showed that this
                            average had dropped to 10 calendar days.
                            Both reviews identified “reroutes” as a cause for processing
                            delays. Reroutes are documents that have been routed to the
                            Accounts Management Adjustment function from other



                            10
                              The population estimate was calculated using the actual percentage
                            rather than the rounded percentage that appears in the report.
                                                                                           Page 5
 Processing Changes Would Improve Service and Reduce Unnecessary Interest
Paid on Refunds to Taxpayers That File Amended Individual Income Tax Returns

                            functions, field offices, campuses, and Lockbox sites.11 The
                            reviews indicated that reroutes would never be totally
                            eliminated because IRS procedures require a certain amount
                            of routing when special skills are needed to resolve a case or
                            when another function has an open issue on the case.
                            However, the second review also found that it took the
                            ICT Unit an average of 8 additional calendar days to scan
                            the Forms 1040X into the CIS and an average of 3 more
                            calendar days before the Forms 1040X were assigned to
                            Accounts Management Adjustment function employees.
                            The review did not address the reasons behind these
                            additional time periods.
                            In our opinion, the combined average of 21 days between
                            the date the IRS received the Forms 1040X and the date the
                            Forms 1040X were assigned to Accounts Management
                            Adjustment function employees is excessive. This is
                            especially true in light of the CIS background information,
                            which indicates that a taxpayer letter may be imaged,
                            controlled, and assigned to an employee in the Accounts
                            Management Adjustment function within 1 to 2 days of the
                            IRS received date. We believe similar time periods will
                            occur at the other campuses once they implement the CIS.
                            As a result of the reviews, some processing changes for
                            Forms 1040X were implemented. For example, the
                            11-workday requirement was changed to 12 calendar days
                            effective November 15, 2004. Still, we believe the IRS
                            should do more to identify and address the causes for the
                            processing delays.

                            Recommendation

                            1. The Director, Customer Account Services (CAS),
                               W&I Division, should ensure follow-up reviews are
                               conducted to determine if the change to a 12-calendar
                               day processing time period for Forms 1040X was
                               effectively implemented. In addition, causes for

                            11
                               A lockbox site is a commercial bank designated by the Financial
                            Management Service (FMS) to process federal tax payments. Source
                            documents are processed and forwarded to the Submission Processing
                            sites. The FMS is the bureau within the Department of the Treasury
                            responsible for outside contracting and cash management.
                                                                                         Page 6
 Processing Changes Would Improve Service and Reduce Unnecessary Interest
Paid on Refunds to Taxpayers That File Amended Individual Income Tax Returns

                                 processing delays within the ICT Units should be
                                 identified and corrective actions should be implemented.
                            Management’s Response: The IRS agreed with this
                            recommendation. Reviews of the new 12-calendar day
                            processing time period have been and will continue to be
                            conducted at each campus. The results, thus far, indicate the
                            change was effectively implemented. The W&I Division
                            will develop procedures to require campuses to review the
                            ICT Units to identify processing delays, their causes, and
                            appropriate corrective measures. The campuses will be
                            required to conduct these reviews at least twice per
                            fiscal year.
                            Forms 1040X were not timely closed
                            We found that 49 (14 percent) of the 357 Forms 1040X in
                            our sample were not closed by the Accounts Management
                            Adjustment function within 45 calendar days and became
                            over-aged. The average number of days to close the
                            49 cases was 56 days. Using the 14 percent rate, we
                            estimated that 144,524 of the Forms 1040X in the
                            population were not closed within 45 calendar days.12
                            Accounts Management Adjustment function personnel
                            indicated there are exceptions to the 45-calendar day time
                            period. They referred to reroutes as an example and added
                            that improving the processing time period would be difficult
                            because the Accounts Management Adjustment function has
                            no control over other functions’ processing time periods.
                            As part of the Austin Campus’ review of ICT Unit receipts
                            during the fall of 2004, the Submission Processing Form
                            1040X Unit gathered information on Forms 1040X received
                            that were aged 30 or more days. Appropriate feedback was
                            to be provided to the sending areas. Subsequent to the
                            initial test period, the Unit was to conduct periodic quarterly
                            reviews and continue to provide feedback to the sending
                            areas. Information from the test was also to be provided to a
                            Submission Processing function Headquarters analyst.
                            We agree that reroutes cannot be totally eliminated and, as a
                            result, the Accounts Management Adjustment function


                            12
                              The population estimate was calculated using the actual percentage
                            rather than the rounded percentage that appears in the report.
                                                                                           Page 7
        Processing Changes Would Improve Service and Reduce Unnecessary Interest
       Paid on Refunds to Taxpayers That File Amended Individual Income Tax Returns

                                   cannot close every Form 1040X within 45 days. However,
                                   we believe a 14 percent over-aged rate is excessive and
                                   could have a negative impact on customer service and
                                   satisfaction.

                                   Recommendation

                                   2. The Director, CAS, W&I Division, should ensure the
                                      quarterly periodic reviews of Forms 1040X receipts
                                      that are aged 30 or more days are conducted at all
                                      W&I Division campuses that process Forms 1040X, that
                                      sufficient information is gathered and analyzed to
                                      identify problem areas or trends causing the processing
                                      delays, and that appropriate feedback is provided to the
                                      sending areas. In addition, results of the campus’
                                      reviews should be analyzed at the W&I Division level to
                                      determine if additional guidance or procedures should be
                                      issued to the various W&I Division functions that
                                      process Forms 1040X.
                                   Management’s Response: The IRS partially agreed with
                                   this recommendation. The IRS recognizes the need to
                                   periodically review receipts; however, the IRS believes this
                                   can be accomplished through sampling with less frequency
                                   than suggested. Campuses will be required to sample
                                   receipts that are aged 30 or more days and review them to
                                   determine possible trends and develop strategies to improve
                                   timeliness. The campuses will be required to conduct these
                                   reviews at least twice per fiscal year.
                                   Office of Audit Comment: We agree with the alternate
                                   corrective action to conduct reviews at least twice per fiscal
                                   year.
                                   In addition to the Accounts Management Adjustment
Untimely Processing of Amended
                                   function’s 45-calendar day period to close cases, IRS
Individual Income Tax Returns
                                   procedures require that taxpayer refunds be issued within
Resulted In Unnecessary Interest
                                   45 calendar days to avoid the payment of unnecessary
Paid
                                   interest. For example, IRS procedures indicate that, when
                                   an amended return results in an overpayment and the refund
                                   is issued within 45 days of the received date of the
                                   processible amended return, no interest is allowed from the
                                   received date.


                                                                                           Page 8
 Processing Changes Would Improve Service and Reduce Unnecessary Interest
Paid on Refunds to Taxpayers That File Amended Individual Income Tax Returns

                            We analyzed the sample of 357 Forms 1040X and
                            determined that 264 Forms 1040X resulted in taxpayer
                            refunds. The refunds for 120 (34 percent of 357) of these
                            Forms 1040X were not issued within 45 days of the
                            processible date. The average number of days to issue the
                            refunds for the 120 Forms 1040X was 60 days, and the
                            range was from 46 to 124 days. Using the 34 percent rate,
                            we estimated that refunds were not issued within the
                            45-day interest-free period for 353,937 Forms 1040X in the
                            population.13 In addition, we estimated that the additional
                            interest associated with the 353,937 Forms 1040X was
                            $3,085,185. While this additional interest is relatively
                            small for the 6-month period reviewed, we believe if the
                            34 percent rate of occurrence persists, the additional interest
                            could become significant.
                            We identified several contributing factors why refunds were
                            not always issued within the 45-day interest-free period.
                            For example, Forms 1040X for refund are not prioritized for
                            processing over other types of Forms 1040X during
                            Submission Processing function prescreening and sorting
                            activities. In addition, Forms 1040X for refund are not
                            prioritized for scanning into the CIS and are not given a
                            priority code when they are scanned. As a result, they are
                            not flagged as priority cases when they are assigned to
                            Accounts Management Adjustment function employees.
                            IRS personnel informed us that the Accounts Management
                            Adjustment function IRM does not specifically require that
                            the function meet the 45-day interest-free period. They also
                            believe the increased labor costs associated with trying to
                            meet it for all Forms 1040X would make it economically
                            unfeasible.
                            While the IRM for the Accounts Management Adjustment
                            function may not specially require it, we believe the IRM
                            procedures regarding the 45-day interest-free period apply
                            to all IRS operations based on the following:
                            •    The IRM that covers the administration and computation
                                 of overpayment interest indicates the procedures apply
                                 to all business operating divisions and functions:

                            13
                              The population estimate was calculated using the actual percentage
                            rather than the rounded percentage that appears in the report.
                                                                                           Page 9
 Processing Changes Would Improve Service and Reduce Unnecessary Interest
Paid on Refunds to Taxpayers That File Amended Individual Income Tax Returns

                                 Appeals, Taxpayer Advocate, and Criminal
                                 Investigation.14 In addition, the IRM that identifies the
                                 14 different IRS divisions and functions states that “All
                                 Operating Divisions & Functions” refers to all 14.15
                            •    The IRM that covers the guidelines for processing
                                 timeliness specifically addresses the 45-calendar day
                                 interest-free period and indicates that all refundable tax
                                 returns must be processed so the refunds are issued
                                 within 45 calendar days to avoid interest payments.16
                            •    The IRM that covers the processing period for a
                                 refund-due U.S. Individual Income Tax Return
                                 (Form 1040) indicates a refund must be issued within
                                 45 calendar days to avoid interest payments.17
                            We also believe that, because many different W&I Division
                            functions are involved in the processing of Forms 1040X,
                            their procedures should be compatible and provide a
                            comprehensive set of procedures for processing
                            Forms 1040X.




                            14
                               IRM 20.2.4.
                            15
                               IRM 1.11.2.11.1.8.
                            16
                               IRM 3.30.123.2.2.
                            17
                               IRM 3.30.123.6.1.1.
                                                                                    Page 10
 Processing Changes Would Improve Service and Reduce Unnecessary Interest
Paid on Refunds to Taxpayers That File Amended Individual Income Tax Returns

                                             Figure 2: Summary of Audit Findings


                                Estimated Unnecessary Interest Paid        $3,085,185


                                    Forms 1040X Processed by
                                    the Accounts Management                 1,052,964
                                       Adjustment Function

                                 Estimated Forms 1040X Not Routed
                                        Within 11 Workdays            430,623


                                  Estimated Refund Forms 1040X
                                   With Untimely Issued Refunds       353,937



                            Source: Analysis of our statistical sample of Forms 1040X.

                            Recommendations

                            3. The Director, CAS, W&I Division, should ensure the
                               Submission Processing Code and Edit function
                               procedures are revised to include the sorting and
                               batching of Forms 1040X for potential refund and to
                               flag the batches for priority processing by the ICT Unit.
                               In addition, ICT Unit procedures should be revised so
                               Forms 1040X for potential refund are prioritized for
                               scanning and are assigned a priority code for working by
                               Accounts Management Adjustment function employees.
                            Management’s Response: W&I Division management did
                            not agree with this recommendation and will continue to use
                            the first-in, first-out (FIFO) inventory control method to
                            ensure all taxpayers submitting requests for service are
                            treated equitably.
                            Office of Audit Comment: The decision to allow the
                            Accounts Management Adjustment function to continue
                            using its FIFO method for processing Forms 1040X (rather
                            than prioritizing those having potential refunds to prevent
                            the payment of unnecessary interest) reflects an inconsistent
                            application of the IRS’ policy for refundable tax returns.
                            For example, within the W&I Division, the Submission
                            Processing function processes Forms 1040X in accordance
                            with IRM guidelines requiring refunds to be issued within
                            45 calendar days to avoid interest payments.

                                                                                         Page 11
 Processing Changes Would Improve Service and Reduce Unnecessary Interest
Paid on Refunds to Taxpayers That File Amended Individual Income Tax Returns

                            These are the same guidelines used each year during the
                            filing season18 to process refundable tax returns in an effort
                            to reduce costs and ensure the timely issuance of taxpayer
                            refunds. In contrast, by allowing the Accounts Management
                            Adjustment function to continue to process Forms 1040X
                            using the FIFO method, taxpayer equity is compromised
                            rather than ensured because of the inconsistent guidelines
                            between these functions in addition to incurring costs for the
                            payment of unnecessary interest due to the untimely
                            issuance of refunds as identified in this audit.
                            We believe processing Forms 1040X refunds using the IRS’
                            45-day guideline should be consistently applied within the
                            W&I Division since the Form 1040X is characteristic of a
                            refundable tax return rather than a taxpayer request for
                            service. Using the 45-day guideline benefits both the
                            taxpayer by ensuring refunds are expedited as well as the
                            IRS by preventing the payment of unnecessary interest as
                            quantified in the statistical analysis and outcome measure
                            discussed in this report.
                            4. The Director, CAS, W&I Division, should ensure the
                               various W&I Division functions’ IRM procedures for
                               processing Forms 1040X are consistent, compatible, and
                               comprehensive.
                            Management’s Response: The IRS agreed with this
                            recommendation. The W&I Division reviewed and clarified
                            its IRM and procedures for processing Form 1040X. The
                            Submission Processing function IRM19 was revised to only
                            include Form 1040 series refund returns received and
                            processed by Submission Processing as being subject to the
                            45-calendar day interest-free period.
                            Office of Audit Comment: Although the W&I Division
                            clarified its procedures, the corrective action taken does not
                            ensure the guidelines for processing Forms 1040X are
                            consistent and compatible within its various functions. As
                            described in our comment to Recommendation 3, this action
                            allows the Accounts Management Adjustment function to
                            continue to process Forms 1040X inconsistently as

                            18
                               The period from January though mid-April when most individual
                            income tax returns are filed.
                            19
                               See the explanation of IRM 3.30.123.2.2 in the first bullet on page 10.
                                                                                            Page 12
 Processing Changes Would Improve Service and Reduce Unnecessary Interest
Paid on Refunds to Taxpayers That File Amended Individual Income Tax Returns

                            compared to the Submission Processing function. As
                            clarified by management, Forms 1040X having potential
                            refunds will only be subject to the 45-day guideline if
                            processed by the Submission Processing function and not by
                            the Accounts Management Adjustment function.




                                                                              Page 13
       Processing Changes Would Improve Service and Reduce Unnecessary Interest
      Paid on Refunds to Taxpayers That File Amended Individual Income Tax Returns

                                                                                                   Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service
(IRS) timely and properly processes Amended U.S. Individual Income Tax Returns
(Form 1040X). The audit focused on the Forms 1040X that were referred to the Accounts
Management Adjustment function and closed between January and June 2004.
To accomplish our objective, we:
I.      Determined if the Submission Processing function properly identified and referred
        Forms 1040X to the Accounts Management Adjustment function.
        A. Reviewed Treasury Inspector General for Tax Administration and Government
           Accountability Office reports for prior reviews of Form 1040X processing.
        B. Reviewed the Internal Revenue Manual (IRM)1 to identify the criteria for routing
           Forms 1040X to the Accounts Management Adjustment function.
        C. Conducted walk-throughs of the Austin Campus2 Submission Processing and
           Accounts Management Adjustment function areas to observe how Forms 1040X are
           processed and to gain an understanding of how managers monitor the processing of
           Forms 1040X.
        D. Extracted a population of 1,512,695 Transaction Codes (TC) 9713 posted to
           Individual Master File4 (IMF) accounts between January and June 2004. We
           analyzed the population to identify the volumes and percentages of Forms 1040X
           routed to other functions. For each function, we determined the volumes and
           percentages of Forms 1040X that were routed within 11 workdays as required by
           IRM 3.30.123.6.5.
II.     Determined if the Forms 1040X were timely processed to minimize interest costs to the
        Federal Government.
        A. Reviewed the IRM to identify the criteria for timely processing Forms 1040X for
           refunds to minimize the amount of interest paid to taxpayers.

1
  The IRM contains the policies, procedures, and guidelines for IRS operations.
2
  The campuses are the data processing arm of the IRS. They process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
3
  Input of a TC 971 and three-digit Action Code (AC) indicates the taxpayer filed an amended return and begins an
action trail for the document. The AC identifies the function to which the amended return was routed
(e.g., Accounts Management Adjustment function (AC 010), Collection function (AC 012), Examination function
(AC 013), Statute function (AC 014), Underreporter function (AC 015), and Philadelphia Submission Processing
Center for all International claims (AC 016)). Each taxpayer account could contain one or more TC 971s.
4
  The IRS database that maintains transactions or records of individual tax accounts.
                                                                                                          Page 14
      Processing Changes Would Improve Service and Reduce Unnecessary Interest
     Paid on Refunds to Taxpayers That File Amended Individual Income Tax Returns

         B. Reviewed 2 Austin Campus reports for reviews of the Image Control Team Unit
            receipts for 1 week in June 2004 and for 9 weeks between September and
            November 2004.
         C. Analyzed the IMF extract and identified a population of 1,052,964 individual
            taxpayer accounts that contained a Form 1040X that was referred to the Accounts
            Management Adjustment function and closed between January and June 2004. We
            selected a random statistical sample of 357 taxpayer accounts from the population
            based on a 95 percent confidence level, an expected error rate of 50 percent, and
            precision of + 5.2 percent. A statistical sampling method was used to make a
            projection about the population from which the sample was selected. We performed
            the following tests on the sample:
             1. Determined if the referral records for the 357 Forms 1040X were properly input
                within the Submission Processing function’s 11-workday processing criteria.
                  a) For each of the 357 Forms 1040X in our sample, verified the Form 1040X
                     received date by examining the IRS received date stamp on the original
                     Form 1040X and compared this date to the TC 971 transaction date to
                     determine if the dates matched as required by IRM 3.11.6.3.7(1).
                  b) We projected the statistical sample result to the population.
             2. Determined if the 357 Forms 1040X were timely processed in accordance with
                the Accounts Management Adjustment function’s 45-calendar day guideline for
                inventory aging.
                  a) For each of the 357 Forms 1040X in our sample, computed the number of
                     days between the later of the received date or processible date and the date the
                     Form 1040X was closed by the Accounts Management Adjustment function.
                      (1) Verified the later of the received date or processible date by examining the
                          IRS received date stamp(s) on the original Form 1040X or other
                          documentation contained in the case file. (A Form 1040X can contain
                          multiple IRS received date stamps if it is returned to the taxpayer for
                          missing information, then returned to the IRS again.)
                      (2) Determined the date the Accounts Management Adjustment function
                          completed work on each Form 1040X by obtaining an audit trail for each
                          taxpayer account. We manually compared the date of the adjustment
                          transaction record on the audit trail to the Julian Date5 of the Document




5
  The Julian Date Calendar assigns a sequential number (e.g., 1 through 365 (366 for leap years)) to each day of
the calendar.
                                                                                                            Page 15
      Processing Changes Would Improve Service and Reduce Unnecessary Interest
     Paid on Refunds to Taxpayers That File Amended Individual Income Tax Returns

                          Locator Number6 for the adjustment record posted to each taxpayer
                          account.
                 b) We projected the statistical sample result to the population.
             3. Analyzed the 357 Forms 1040X to identify ones that resulted in taxpayer refunds
                and determined if the refunds were issued within 45 calendar days to avoid the
                payment of unnecessary interest. We performed additional analysis on the
                taxpayer accounts to determine if the refunds for the 264 Forms 1040X that
                received refunds were issued within the 45-calendar day interest-free period in
                accordance with IRM 20.2.4.7.2.3 and IRM 3.30.123.2.2.
                 a) For each of the 357 Forms 1040X in the sample, reviewed the original
                    Forms 1040X and taxpayer accounts and identified 264 Forms 1040X for
                    refund.7
                 b) For each of the 264 Forms 1040X for refund, computed the number of days
                    between the processible date of the Form 1040X and the date the refund was
                    issued to the taxpayer. We determined that refunds for 120 Forms 1040X
                    were not issued within the 45-calendar day interest-free period.
                 c) Using the 34 percent rate,8 projected the statistical sample result to the
                    population and estimated that refunds were not issued within the 45-day
                    interest-free period for 353,937 Forms 1040X in the population.
                 d) Estimated the additional interest9 for each of the 120 Forms 1040X identified
                    in Step II.C.3.b. The sum of the additional interest for the 120 Forms 1040X
                    was $1,045. We did not compute the actual additional interest for each of the
                    120 Forms 1040X because of audit resource and time constraints and the
                    complexity of the interest calculations.
                 e) Used the information identified in Step II.C.3.d in statistical formulas for
                    variables to estimate the additional interest cost of $3,085,185 for the
                    population.




6
  A unique number assigned to every tax return to assist in controlling, identifying, and locating the return.
7
  These 264 taxpayer accounts contained a TC 846 that is input to refund an overpayment to the taxpayer. The
amount of the TC 846 matched the amount reported on the Form 1040X if there were no other corrections or
adjustments on the account.
8
  The 34 percent was computed by dividing the 120 Forms 1040X with untimely issued refunds by the
357 Forms 1040X in the sample.
9
  The interest rate for noncorporate overpayments was 4 percent from January 1 through March 31, 2004, and
5 percent from April 1 through June 30, 2004. The average rate for these 2 periods is 4.5 percent. Since most of the
refunds for the 264 Forms 1040X for refund in the sample were issued between January and June 2004, we used the
average of 4.5 percent to compute the additional interest.
                                                                                                           Page 16
     Processing Changes Would Improve Service and Reduce Unnecessary Interest
    Paid on Refunds to Taxpayers That File Amended Individual Income Tax Returns

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Scott A. Macfarlane, Director
Gary L. Young, Audit Manager
Sharon A. Buford, Lead Auditor
John L. Hawkins, Senior Auditor
Lawrence N. White, Senior Auditor
Bonnie G. Shanks, Auditor
Joe C. Butler, Information Technology Specialist




                                                                                         Page 17
    Processing Changes Would Improve Service and Reduce Unnecessary Interest
   Paid on Refunds to Taxpayers That File Amended Individual Income Tax Returns

                                                                            Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Acting Director, Strategy and Finance, Wage and Investment Division SE:W:S
Acting Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Accounts Management SE:W:CAS:AM
Director, Submission Processing SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Acting Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                  Page 18
      Processing Changes Would Improve Service and Reduce Unnecessary Interest
     Paid on Refunds to Taxpayers That File Amended Individual Income Tax Returns

                                                                                                   Appendix IV


                                            Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•   Taxpayer Burden – Potential; 144,524 taxpayer accounts affected (see page 7).
Methodology Used to Measure the Reported Benefit:
The Accounts Management Adjustment function’s criteria for working Forms 1040X is
generally 45 calendar days. After 45 days in inventory, the Forms 1040X become over-aged.
The 45-day period is computed from the later of the Form 1040X received date or processible
date1 to the Accounts Management Adjustment function closure date. For the 357 Forms 1040X
in our sample, we computed the number of days between the later of the Form 1040X received
date or processible date and the Accounts Management Adjustment function closure date. We
found that 49 (14 percent) of the 357 Forms 1040X were not closed by the Accounts
Management Adjustment function within 45 calendar days and became over-aged. Using the
14 percent rate, we estimated that 144,524 (± 3.6 percent) of the Forms 1040X in the population
were not closed within 45 calendar days.2
Type and Value of Outcome Measure:
•   Funds Put to Better Use – Potential; $3,085,185 interest associated with 353,937 taxpayer
    accounts (see page 8).
Methodology Used to Measure the Reported Benefit:
We analyzed our statistical sample of 357 Forms 1040X and identified 264 Forms 1040X for
refund. We determined that refunds for 120 (34 percent of the 357) Forms 1040X were not
issued within 45 days of the later of the received date or return processible date. Using the
34 percent rate, we estimated that refunds were not issued within the 45-day interest-free period
for 353,937 (± 4.9 percent) of the Forms 1040X in the population.3



1
  A return is processible by the Internal Revenue Service if it is filed on a permitted form; contains the taxpayer’s
name, address, identification number, and required signature; and contains sufficient information for mathematical
verification of the amount shown on the claim.
2
  The population estimate was calculated using the actual percentage rather than the rounded percentage that appears
in this appendix.
3
  The population estimate was calculated using the actual percentage rather than the rounded percentage that appears
in this appendix.
                                                                                                            Page 19
     Processing Changes Would Improve Service and Reduce Unnecessary Interest
    Paid on Refunds to Taxpayers That File Amended Individual Income Tax Returns

Since most of the refunds for the 120 Forms 1040X were issued between January and June 2004,
we used the average interest rate of 4.5 percent4 and computed the additional interest for each of
the 120 Forms 1040X. We used this information in statistical formulas for variables to estimate
the $3,085,185 (± $1,233,400) additional interest cost for the population.




4
 The interest rate for noncorporate overpayments was 4 percent from January 1 through March 31, 2004, and
5 percent from April 1 through June 30, 2004. The average rate for these 2 periods is 4.5 percent.



                                                                                                       Page 20
 Processing Changes Would Improve Service and Reduce Unnecessary Interest
Paid on Refunds to Taxpayers That File Amended Individual Income Tax Returns

                                                                    Appendix V


               Management’s Response to the Draft Report




                                                                          Page 21
 Processing Changes Would Improve Service and Reduce Unnecessary Interest
Paid on Refunds to Taxpayers That File Amended Individual Income Tax Returns




                                                                          Page 22
 Processing Changes Would Improve Service and Reduce Unnecessary Interest
Paid on Refunds to Taxpayers That File Amended Individual Income Tax Returns




                                                                          Page 23
 Processing Changes Would Improve Service and Reduce Unnecessary Interest
Paid on Refunds to Taxpayers That File Amended Individual Income Tax Returns




                                                                          Page 24
 Processing Changes Would Improve Service and Reduce Unnecessary Interest
Paid on Refunds to Taxpayers That File Amended Individual Income Tax Returns




                                                                          Page 25
